HHS/OIG-Audit--"Summary of Nonfederal Audit Reports Related to the Indian Health Service, (A-05-93-00079)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Summary of Nonfederal Audit Reports Related to the Indian Health Service,"
(A-05-93-00079)
November 3, 1994
Complete Text of Report is available in PDF format
(4.11 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report summarizes Indian Health Service (IHS) findings in nonfederal
audit reports where HHS is responsible for audit resolution. This report highlights
areas where improvements are needed in the administration of IHS-funded programs.
We reviewed 133 nonfederal audit reports issued in CY 1992, with 511 findings
and questioned costs of $1.2 million. The 511 findings are summarized into 7
deficiency categories: internal controls, cash management, financial reporting,
cash disbursement, policy and procedures, accounting system, and program administration.
We recommended that the IHS focus its attention in these areas by issuing to
the administrators of tribal programs guidelines and instructions, holding training
workshops, and closely monitor the corrective actions. The Public Health Service
concurred with our recommendation.